   November 25, 2002




Information System Security
Government Information Security
Reform Act Implementation:
Defense Advanced Research
Projects Agency Management
Support System
(D-2003-027)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                        Communications, and Intelligence)
DAA                   Designated Approving Authority
DARPA                 Defense Advanced Research Projects Agency
DITSCAP               DoD Information Technology Security Certification and
                        Accreditation Process
DMSS                  Defense Advanced Research Projects Agency Management
                        Support System
GISR                  Government Information Security Reform
SSAA                  System Security Authorization Agreement
         Office of the Inspector General of the Department of Defense
Report No. D-2003-027                                               November 25, 2002
  (Project No. D2002LD-0101)

     Government Information Security Reform Act Implementation:
            Defense Advanced Research Projects Agency
                    Management Support System

                                Executive Summary

Who Should Read This Report and Why? DoD personnel who are involved in
implementing Government Information Security Reform Act (GISR Act) requirements
should read this report. The report discusses our independent assessment of the
information security posture of the Defense Advanced Research Projects Agency
(DARPA) Management Support System, a DARPA system.

Background. To gather data on assessments of the effectiveness of DoD information
assurance policies, procedures, and practices, DoD developed a GISR Act collection matrix
for automated information systems. DoD selected a sample of 560 automated information
systems from the almost 4,000 automated information systems in DoD. For those 560
systems, DoD reported the aggregate results of the assessments for FY 2001 in “GISR
Report FY01: Government Information Security Reform Act, Report of the Department of
Defense,” October 2001. Of the 560 systems, the Office of the Inspector General of the
Department of Defense, the Defense Information Systems Agency Inspector General, and
Military Department audit agencies assessed a sample of 115 systems. This report is one in
a series of GISR Act audits and is an assessment of the DARPA Management Support
System. The DARPA Management Support System is a mission-essential system that
supports DARPA and its various technical and support offices.

Results. The data reported for the DARPA Management Support System in the GISR
Act collection matrix for FY 2001 were partially inaccurate as of August 1, 2001, the
date of the FY 2001 collection matrix data. DARPA answered 5 of the 32 collection
matrix data fields incorrectly. Also, DARPA did not provide documentation that
supported 8 of the 32 responses. Additionally, the key DARPA information assurance
staff positions were not aligned in a way that ensures segregation of duties and the
required checks and balances in the DoD Information Technology Security Certification
and Accreditation Process for the DARPA Management Support System. Furthermore,
DARPA did not formally appoint three of the four key information assurance staff
positions required to ensure the appropriate checks and balances during the certification
process. Also, the designated approving authority was not within the operational chain of
command, as the DoD Information Technology Security Certification and Accreditation
Process requires. Further, DARPA did not provide support that it had verified that the
contractors working on the system had proper security clearances. As a result, the
DARPA Management Support System may not have adequate information security
operational controls that ensure sensitive information is safeguarded. For details of the
audit results, see the Finding section of the report.
Management Comments and Audit Response. DARPA nonconcurred with the finding
and the recommendations. DARPA disagreed that 5 of the 32 matrix responses were
incorrect and that insufficient information was provided for 8 other responses. DARPA
also reported that the DARPA Management Support System was formally accredited on
September 6, 2002 which included documentation of the certification authority, project
manager, and user representative positions. Where appropriate, we revised our
discussion of matrix responses as a result of the DARPA comments. However, those
revisions did not alter our finding. DARPA nonconcurred with the three report
recommendations, stating that the alignment of its information assurance staff positions
was correct and appropriate. DARPA also stated that the designated approving authority
and certification authority are separate and independent from each other. Further,
DARPA stated that security clearance documentation for information systems contract
support personnel had always existed and that it would provide this information if
requested. The DARPA responses to the recommendations were nonresponsive.
DARPA did not address the formal appointment of the three key information assurance
staff positions and did not address the organizational alignment of those positions to
ensure checks and balances. Additionally, DARPA did not provide supporting
documentation that verified the independence of the designated approving authority and
the certification authority and the security clearance levels for the information systems
contract support personnel with access to the DARPA Management Support System. We
request that DARPA reconsider its position on the recommendations and provide
additional comments in response to the final report by January 24, 2003. See the Finding
section and Appendix C for a discussion of management comments and the Management
Comments section for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              2

Finding
     Defense Advanced Research Projects Agency Management Support
        System Information Security                                     3

Appendixes
     A. Scope and Methodology                                          16
     B. Government Information Security Reform Act Collection Matrix
         Submission                                                    17
     C. Summary of DARPA Comments on the Finding and Audit Response    27
     D. Report Distribution                                            37

Management Comments
     Defense Advanced Research Projects Agency                         39
Background
    Government Information Security Reform. On October 30, 2000, the President
    signed the Floyd D. Spence National Defense Authorization Act for FY 2001
    (Public Law 106-398), which includes title X, subtitle G, the “Government
    Information Security Reform” (GISR) Act. Subtitle G directs that the Government
    ensure effective controls for highly networked Federal information resources;
    management and oversight of information security risks; and a mechanism for
    improved information system security oversight and assurance for Federal
    information security programs. The GISR Act directs each Federal agency (DoD
    for purposes of this report) to annually evaluate its information security program
    and practices and, as part of the budget process, submit the results of the
    evaluation to the Office of Management and Budget. The GISR Act covers both
    unclassified and national information security systems and creates a comparable
    security management framework for each. The GISR Act also requires that the
    agency Inspector General or other independent agent evaluate the agency
    information security program and practices. Also, the GISR Act requires each
    agency Inspector General or other independent agency to select and test a subset of
    systems that will confirm the effectiveness of the information security programs.

    DoD Responsibilities. The GISR Act directs DoD to annually evaluate its
    information security program and practices. The DoD uses information
    technology for thousands of processes that are integral to support and operational
    functions. Mission-critical, mission-essential, and support-function processes, or
    applications, reside on computer systems throughout DoD. Applications for the
    DoD Components include financial accounting; personnel; pay and disbursement;
    materiel shipping, receiving, and storing; munitions maintenance; and weapon
    systems-associated applications.

    The GISR Act directs that DoD as part of the budget process submit the results of
    their annual evaluation to the Office of Management and Budget. Office of
    Management and Budget guidance, memorandum 01-24, “Reporting Instructions
    for the Government Information Security Reform Act,” June 22, 2001, directs the
    Secretary of Defense to transmit the FY 2001 annual evaluation of information
    security program and practices to the Office of Management and Budget by
    October 1, 2001. The Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) (ASD[C3I]) formed and chaired an Integrated
    Process Team to develop and finalize the guidance and methodology for DoD
    reporting of the GISR Act. The Integrated Process Team developed a 32-column
    spreadsheet--GISR Act collection matrix--to gather data on assessments of the
    effectiveness of DoD information assurance policies, procedures, and practices.
    DoD required the FY 2001 GISR Act collection matrix data completion as of
    August 1, 2001.

    Inspector General Responsibilities. Office of Management and Budget issued
    memorandum 01-08, “Guidance on Implementing the Government Information
    Security Reform Act,” in January 2001 to provide implementation instructions for
    Federal agencies in carrying out the GISR Act. Guidance specific to the duties of
    each Inspector General as an independent evaluator was also included in that
    memorandum. The Office of Management and Budget guidance states that each


                                        1
    Inspector General or independent evaluator “should perform an annual evaluation
    of the agency’s security program and practices. This includes testing the
    effectiveness of security controls for an appropriate subset of agency systems.”
    Although the GISR Act applies to all Government information systems, Office of
    Management and Budget acknowledged that agencies could not review all of those
    systems every year. As a result, the independent evaluation should identify and
    assess a logical representative sampling of systems that can be used to form the
    basis of a conclusion regarding the effectiveness of an agency’s overall security
    program.

    DoD Systems. The Office of the Inspector General of the Department of Defense
    developed a stratified random sample from the population of automated information
    systems the DoD evaluated and reported for FY 2001 in the “GISR Report FY01:
    Government Information Security Reform Act, Report of the Department of
    Defense,” October 2001 (DoD GISR Act Report). DoD selected and reported in the
    DoD GISR Act Report on a sample of 560 automated information systems from the
    almost 4,000 systems listed in the DoD Information Technology Registry.1 The
    Office of the Inspector General of the Department of Defense stratified random
    sample included 115 systems from the universe sample of 560 systems that were
    reported on in the DoD GISR Act Report. The audit agencies for the Military
    Departments and the Defense Information Systems Agency Inspector General were to
    evaluate 91 of the 115 information systems in the sample by August 2, 2002. The
    Office of the Inspector General of the Department of Defense was to evaluate the
    remaining 24 systems that support DoD agencies and activities. This report discusses
    the evaluation of 1 of the 24 DoD-level systems, the Defense Advanced Research
    Projects Agency (DARPA) Management Support System (DMSS).

    DoD Information Security Program. DoD Instruction 5200.40, “DoD
    Information Technology Security Certification and Accreditation Process,
    (DITSCAP),” December 30, 1997 (hereafter referred to as DITSCAP), provides the
    procedures for certification and accreditation of information technology to include
    information systems, networks, and sites in DoD. It also assigns responsibilities for
    oversight and implementation of the certification and accreditation process.
    DITSCAP is to be used as guidance throughout the certification and accreditation
    process. DoD Manual 8510.1-M, “Department of Defense Information Technology
    Security Certification and Accreditation Process (DITSCAP) Application Manual,”
    July 2000, provides implementation guidance that standardizes the certification and
    accreditation process throughout DoD.


Objectives
    Our overall audit objective was to assess DMSS for implementation of the GISR
    Act requirements of the Floyd D. Spence National Defense Authorization Act for
    FY 2001. See Appendix A for a discussion of the audit scope and methodology.

    1
        The Information Technology Registry was established in response to requirements contained in
        section 8102(a) of the National Defense Appropriation Act for FY 2001 and section 811(a) of
        the National Defense Authorization Act for FY 2001. The DoD registry must contain all of the
        fielded mission-critical and mission-essential systems as well as all the mission-critical and
        mission-essential systems that are in development.


                                                  2
             Defense Advanced Research Projects
             Agency Management Support System
             Information Security
             Data reported for DMSS in support of the implementation of the GISR
             Act requirements for FY 2001 were partially inaccurate as of
             August 1, 2001. DARPA2 answered 5 of the 32 GISR Act collection
             matrix data fields incorrectly. Also, DARPA did not provide
             documentation that supported 8 of the 32 collection matrix responses.
             Additionally, the key DARPA information assurance staff positions were
             not aligned in a way that ensures segregation of duties and the required
             checks and balances in the DITSCAP for DMSS. Furthermore, DARPA
             did not formally appoint three of the four key information assurance staff
             positions required to ensure the appropriate checks and balances during
             the certification process. Also, the Designated Approving Authority
             (DAA) was not within the operational chain of command, as DITSCAP
             requires. Further, DARPA did not provide support that they had verified
             that the contractors working on the system had proper security clearances.
             As a result, DMSS may not have adequate information security
             operational controls that ensure sensitive information is safeguarded.

Mission and System Information
    The DARPA mission is to develop imaginative, innovative, and often high-risk
    research ideas offering a significant technological impact that will go well beyond
    the normal evolutionary developmental approaches. DARPA pursues the ideas from
    demonstration of the technical feasibility through development of prototype systems.

    System Background. DMSS is a mission-essential3 system that supports
    DARPA and its various technical offices and support offices. DMSS is a local
    area network, in Arlington, Virginia, and consists of interconnected systems that
    provide access to unclassified local area networks and remote workstations. The
    DMSS network mission is to provide standard automation functions and financial
    transaction tracking.

    Contract Support. In September 2001, DARPA contracted for DMSS hardware,
    software, and systems support. The contractor provided computers, printers, and
    other equipment; the software and site licenses that comprise DMSS; and
    maintenance of the system. Additionally, the contractor would provide the
    certification and accreditation documentation of the system that DITSCAP required.




    2
     DARPA is the program office for DMSS.
    3
     Mission-essential systems are those systems that are basic and necessary for the accomplishment
     of an organization’s mission.


                                               3
    System Configuration. DMSS is an unclassified network, but all data is
    considered sensitive. The DMSS network provides financial tracking services,
    software development for financial applications, security protection services, print
    services, file services, database services, application services, web services,
    remote access, Virtual Private Network services, e-mail services, facsimile
    services, scheduling/calendaring and archive facilities for network servers and
    user workstations. DMSS uses commercial off-the-shelf software, such as the
    Microsoft Office Suite products (Access, Excel, Outlook, PowerPoint, and Word).

Data Collection Matrix
    DARPA provided the response for the DMSS to ASD(C3I) as of August 1, 2001,
    and the data reported were partially inaccurate. In response to the GISR Act
    requirement for each Federal agency to annually evaluate and report on its
    information security program and practices, ASD(C3I) developed a GISR Act data
    collection matrix (the matrix) for DoD. The Assistant Secretary developed the
    matrix as a management tool to track information assurance trends and outcomes.
    The matrix consisted of a spreadsheet divided into four sections for data. Section
    titles included identifying information, accreditation information, assessment
    criteria information, and operations and assessments interest items.

    In response to the information requested in the matrix, DARPA was generally
    required to answer yes, no, or provide a date for action completed. With the
    exception of a special section that could be used for augmenting comments, no
    other explanation was required or expected. A discussion of each section of the
    matrix, the data that DARPA reported in the matrix for DMSS, and our analysis
    of the data follows. Appendix B contains the DMSS information submitted by
    DARPA for three of the four sections of the matrix. The section of the matrix that
    requested identifying information is not presented in Appendix B.

    Identifying Information. DARPA was requested to provide the system/network
    name, acronym, component owner, and information technology classification
    (mission critical or mission essential) in the identifying information section of the
    matrix. DARPA responded in the matrix that DMSS was under the component
    ownership of DARPA and was classified as a mission-critical information
    technology system. We verified that the identification information in the matrix
    was incorrectly reported because DMSS was not a mission-critical system but a
    mission-essential system as stated in the DoD Information Technology Registry.

    Accreditation Information. DARPA was requested to provide in the
    accreditation information section of the matrix the date of accreditation
    certification, date of interim certification, the accreditation method, and whether
    formal documentation for certification and accreditation existed.




                                          4
        Accreditation Date. DARPA was requested to provide the date that an
accreditation process accredited DMSS. DoD Directive 5200.28, “Security
Requirements for Automated Information Systems (AISs),” March 21, 1988,
establishes the minimum-security requirements for DoD automated information
systems. DITSCAP implements the Directive, assigns responsibility, and
prescribes procedures for certification and accreditation. DARPA responded in the
matrix that the accreditation is pending. We verified that the DARPA response
was appropriate. DARPA did not place a date in the field because DMSS was in
the process of applying DITSCAP requirements. The DARPA goal was to accredit
the DMSS by September 30, 2002. However, DARPA reported in the
management comments to the draft report that DMSS was accredited on
September 6, 2002.

        Interim Certification Date. DARPA was requested to provide the date
that an interim authority to operate was granted. According to the provisions of
DITSCAP, interim authority should be based on the establishment of an acceptable
level of risk in operating the system. DARPA responded in the matrix that an
interim authority to operate was granted to DMSS on July 15, 2001. We verified
that the matrix response was essentially correct although the date of the interim
authority to operate should have been July 17, 2001. The DAA, Director of the
Security and Intelligence Directorate granted interim authority to operate the
DMSS. That interim authority was valid for 3 months. Since July 17, 2001,
interim authority was renewed three times. The most recent interim authority to
operate the DMSS was granted February 22, 2002. Although the interim authority
was valid until September 30, 2002, DARPA reported in the management
comments to the draft report that DMSS was accredited on September 6, 2002.

        Accreditation Method. DARPA was requested to identify whether DMSS
was accredited under DITSCAP and, if not under DITSCAP, to describe other
accreditation and certification procedures. Several policies govern actions of
DMSS program officials, but DITSCAP is the principal governing document for
risk assessment and mitigation of DoD information technology systems.
DITSCAP establishes the oversight mechanism that ensures identification of
appropriate information to certify, accredit, and maintain a program’s security.
DARPA responded in the matrix that they were using DITSCAP to certify and
accredit the DMSS. We verified that the response was incorrect and that the
DMSS was following DITSCAP procedures, but DARPA should have responded
“no” to the question because as of August 1, 2001, DMSS was not accredited.
DARPA reported in the management comments to the draft report that DMSS was
accredited on September 6, 2002.

        Certification and Accreditation Documentation. DARPA was
requested to identify whether formal documentation existed that the Inspector
General of the Department of Defense or other entities could use to verify
accreditation. DITSCAP requires a System Security Authorization Agreement
(SSAA) for each information technology system. The SSAA is a formal and
binding document among the system program manager, the DAA, the certifying
authority, and the user representative that establishes the level of security
required. The SSAA guides the process and documents the results for
certification and accreditation as well as implementation of information
technology security requirements. DARPA responded in the matrix that they did


                                   5
not have formal documentation in effect for the DMSS certification and
accreditation process. We confirmed that DARPA did not have formal
documentation for the DMSS certification and accreditation process as of
August 1, 2001. Since then, DARPA has developed an in-process4 SSAA.

Assessment Criteria Information. DARPA was requested to confirm that
information assurance controls and plans in the assessment criteria information
section of the matrix existed. According to the instructions provided for the matrix,
ASD(C3I) developed the assessment criteria information section to assess selected
systems on the basic program management, controls, and procedures that exist as
part of the operation of the system.

         Access Controls. DARPA was requested to identify whether access controls
were in place. ASD(C3I) defined access controls as controls that limited access of
information system resources to authorized users, programs, processes, or other
systems. DARPA responded in the matrix that access controls were in place.
DARPA did not provide documentation that supported the “yes” response for having
access controls in place as of August 1, 2001. As a result, we could not verify the
response. However, subsequent to August 2001, we were able to verify that access
controls had been implemented. Those access controls that DMSS used included:
users were required to identify themselves during system login through the use of a
protected mechanism (such as passwords) to authenticate user identity and user
accounts; user accounts are locked out and service will be denied for 60 minutes
after five unsuccessful login attempts; and passwords expired every 90 days.

        Risk Assessment and Management Plan. DARPA was requested to
identify whether a risk assessment and management plan had been completed.
ASD(C3I) defined risk as the possibility of something adverse happening; risk
assessment as the process of analyzing threats and vulnerabilities of an
information system and the potential impact of lost information; and risk
management as the process of assessing risk, taking steps to reduce risk to an
acceptable level, and maintaining that level of risk. DARPA responded in the
matrix that a risk assessment and management plan was completed. We verified
that DARPA had a risk assessment and management plan completed as of
August 1, 2001. The plan listed procedures for determining minimum
information system security requirements.

       System Life-Cycle Plan. DARPA was requested to identify whether a
system life-cycle plan existed. System life-cycle plan guidance that ASD(C3I)
provided with the matrix was that many system life-cycle models exist but most
contain five basic phases: initiation, development and acquisition, implementation,
operation, and disposal. DARPA responded in the matrix that a DMSS System
Life-Cycle Plan was not completed. We confirmed that when DARPA submitted the
matrix data as of August 1, 2001, they had not developed a DMSS System



4
    The audit team could not determine the status of many of the documents developed after
    August 1, 2001. DARPA responded that the documents were operational documents rather than
    draft or final (approved) documents. As a result, we identified the documents as in-process to
    indicate that they are not final documents, but are apparently being used by DARPA.



                                             6
Life-Cycle Plan. However, DARPA has a system life-cycle requirement that called
for hardware and software to be replaced when or before either reaches a
predetermined age.

        System Security Plan. DARPA was requested to identify whether a
system security plan was in place. ASD(C3I) defined a system security plan as an
overview of the security requirements of a system, a description of the controls in
place or the controls planned for meeting those requirements, and delineation of
responsibilities and expected behavior of the individuals who access the system.
DARPA responded in the matrix that a DMSS System Security Plan was not
completed. We confirmed that when DARPA submitted the matrix data as of
August 1, 2001, they had not developed a DMSS System Security Plan.
However, since that time, DARPA developed a DMSS System Security Plan.
The plan serves as a security policy document and provides security services for
protection of information systems. Further, the plan identifies security
mechanisms in place on the DMSS and was expanded to include security policies
and procedures necessary to support the changing environment.

        Personnel Security Measures. DARPA was requested to identify
whether proper personnel security measures were in place. ASD(C3I) defined
personnel security measures as a broad range of security issues related to how
human users, designers, implementers, and managers of software and hardware
interact with computers, and the access and authorities needed to do their jobs.
DARPA responded in the matrix that DMSS had personnel security measures in
place. DARPA did not provide documentation that supported the “yes” response
for having personnel security measures in place as of August 1, 2001. As a result,
we could not verify the response. Subsequent to August 2001, we were able to
verify that personnel security measures had been implemented. DMSS had
segregation of duties, with varying levels of control: the individual must have at
least a SECRET clearance and been granted access to the system based on a
“need to know;” the individual received appropriate training in system
capabilities and security procedures; and foreign nationals who possess a
SECRET clearance may be granted access to the DMSS only after written
approval of the DAA and only to the unclassified network. DMSS password
protection procedures required that passwords change every 90 days and accounts
are terminated either when the user is no longer employed or for misuse.

        Physical Security Controls. DARPA was requested to identify whether
physical security controls were in place. ASD(C3I) defined physical security and
environment security as the measures taken to protect systems, buildings, and
related supporting infrastructures against threats associated with their physical
environment. DARPA responded in the matrix that DMSS had physical security
controls in place. We verified that physical security controls were in place as of
August 1, 2001. An electronic card access system controlled primary access to
the DARPA office suites on a 24-hour basis. In addition, closed-circuit television
cameras provided coverage of the exterior perimeter doors and the sidewalks
immediately adjacent to the building. Unarmed guard patrols were conducted
around the building perimeter and the office spaces after hours. Since August 1,
2001, DARPA implemented additional physical security controls. They include




                                     7
an Arlington County policy officer stationed outside the DARPA main building
24 hours a day and the revocation of on-the-street parking adjacent to the DARPA
building.

        Administrative Controls. DARPA was requested to identify whether
administrative controls were in place. ASD(C3I) did not define administrative
controls but suggested that administrative controls included the presence of a help
desk and audit trail. Administrative controls are designed to promote operational
efficiency and adherence to system policies and procedures. DARPA responded
in the matrix that DMSS had administrative controls in place. However, DARPA
did not provide documentation that supported the “yes” response as of
August 1, 2001. As of August 1, 2001, we verified that DARPA had a help desk,
but we could not verify that DARPA had established audit trails. However,
DARPA provided documentation indicating that audit trails had been established
subsequent to August 1, 2001.

        Contingency Plans. DARPA was requested to identify whether
contingency plans were in place and, if so, when the last time was that a
contingency drill, data loss drill, or power loss drill occurred. ASD(C3I) defined
contingency planning as involving more than simply planning for a move offsite
after a disaster destroys a facility. Contingency planning was to also include how
to keep an organization’s critical functions operational in the event of disruptions,
both large and small. DARPA responded in the matrix that DMSS had a
contingency plan in place. We verified that DARPA had a contingency plan
for 2000; however, DARPA should have responded “no” because the “yes”
response was based on the 2000 Contingency Plan. That plan discussed two
DARPA mission-essential systems: the main DARPA building and the financial
information system. The plan does not mention DMSS or similar local area
network system that predated DMSS.

DoD Directive 5200.28 requires periodic testing of contingency plans for
mission-critical systems and encourages contingency plans for all systems.
DARPA responded in the matrix that DMSS was last exercised December 30, 1999.
We verified that the contingency plan was exercised in the December 1999 time
frame. However, DARPA should not have answered with a date because the
exercise was based on a year 2000 contingency plan. Furthermore, the
2000 Contingency Plan exercise focused only on interruptions for 2000.

Since August 2001, DARPA developed an in-process Business Resumption Plan
that provides the procedures necessary to recover critical DARPA business
functions in the event of a disaster.

        Hardware and System Software Maintenance Plans. DARPA was
requested to identify whether hardware and software maintenance plans were in
place. ASD(C3I) defined hardware and software maintenance plans as controls
used for monitoring the installation of, and update to, hardware and software to
ensure that the system functions as expected and that a historical record of
changes is maintained. DARPA responded in the matrix that DMSS had
hardware and system software maintenance plans in place. However, DARPA
did not provide documentation that supported the “yes” response as of
August 1, 2001. As a result, we could not verify the response.


                                      8
Subsequent to August 2001, we were able to verify that DARPA has a
configuration management plan, used to manage configuration of hardware and
software. In addition, DARPA chartered the DARPA Configuration Control
Board to control the DMSS configuration. The board was to establish procedures
for controlling changes in configuration items.

        Data Integrity Process. DARPA was requested to identify whether data
integrity processes were in place. ASD(C3I) defined data integrity processes as
controls used to protect data from accidental or malicious alteration or destruction
and used to provide assurance for users that the information met expectations
about its quality and integrity. DARPA responded in the matrix that DMSS had
data integrity processes in place. DARPA did not provide documentation that
supported the “yes” response as of August 1, 2001. As a result, we could not
verify the response. However, DARPA has subsequently developed in-process
documents indicating that DMSS currently has a data integrity process in place.
Virus scans and communication encryption software protected the DMSS.

        Security Incident Response Plan. DARPA was requested to identify
whether a security incident response plan was in place. ASD(C3I) defined a
security incident response plan as a formal description and evaluation of risks to an
information system, and a process that identified and applied countermeasures
commensurate with the value of the assets protected based on a risk assessment.
An incident response plan should have help capability when an adverse event in a
computer system or network causes a failure of a security mechanism or when an
attempted breach of those mechanisms occurs. DARPA responded in the matrix
that DMSS had a security incident response plan in place. DARPA did not
provide documentation that supported the “yes” response as of August 1, 2001. As
a result, we could not verify the response. Further, DARPA did not provide
documentation to indicate the current status of the existence of a security incident
response plan.

Operations and Assessments Interest Items. DARPA was requested to identify
specific operational assessment mechanisms that existed as part of the operation of
the system and to provide general comments that would augment reporting efforts
on basic program management, controls, and procedures. ASD(C3I) did not
provide definitions for reporting elements contained in the operations and
assessments interest items section of the matrix. Information contained in that
section included network protections, vulnerabilities, and assessments.

       Network Protections. ASD(C3I) requested data on the network security
functions of intrusion detection software and firewalls from DARPA.

               Intrusion Detection Software. DARPA was requested to identify
whether intrusion detection software protected the DMSS. Intrusion detection
software inspects all inbound and outbound network activity and identifies
suspicious patterns that may indicate a network or system attack from someone
attempting to break into or compromise a system.




                                     9
               Firewalls. DARPA was requested to identify whether boundary
protections, such as firewalls, for DMSS were present. A firewall is a boundary
protection system that limits access between networks to prevent intrusions from
outside the network. A firewall stops external intrusions, but does not detect an
attack from inside the network. DARPA responded in the matrix that intrusion
detection software protected DMSS and that DMSS had boundary protection in
place. DARPA did not provide documentation that supported the “yes” responses
as of August 1, 2001. As a result, we could not verify the responses. However,
DARPA developed in-process documents since August 2001 that confirm
intrusion detection software and boundary protection (firewalls) protect DMSS.

       Vulnerabilities. ASD(C3I) requested DMSS information from DARPA
concerning the red and blue team assessment, connections, information assurance
vulnerability alert process, and the vulnerability analysis and assistance program.

                Red and Blue Team Assessment. DARPA was requested to identify
the date for the most recent red and blue team assessment. According to a dictionary
and reference guide used by the GISR Act Integrated Process Team, a red team is a
simulated opposing force that uses active and passive actions, as well as technical
and non-technical capabilities, to expose and exploit information operation
vulnerabilities of a blue team (a simulated friendly force). DARPA responded in the
matrix that DMSS had a blue team assessment performed on February 8, 2000. The
DARPA response was incorrect. DARPA should not have answered with a date
because, according to the DARPA comments on the draft report, an independent
vulnerability assessment was performed on February 8, 2000, not a blue team
assessment. The blue team assessment was performed in 2002.

               Connections. DARPA was requested to identify whether DMSS
had a connection approval to connect to a larger backbone network. Connections
are system interfaces to other information systems used for transmitting or
receiving data. DARPA responded in the matrix that the DMSS interface
connections were approved. The DARPA response was correct. DARPA stated
it had a waiver, granted by ASD(C3I), to connect to the Internet.
                Information Assurance Vulnerability Alert. DARPA was
requested to identify whether DMSS was fully information assurance vulnerability
alert compliant in both acknowledging and adhering to information assurance
vulnerability alerts. An information assurance vulnerability alert is a process that
incorporates identification and evaluation of new vulnerabilities, disseminates
technical responses, and tracks compliance within DoD. Alerts are generated
when a critical vulnerability that poses an immediate threat to DoD exists.
DARPA responded in the matrix that DMSS was fully information assurance
vulnerability alert compliant. We confirmed that the DARPA response was
appropriate as of August 1, 2001; DMSS was information assurance vulnerability
alert compliant.

               Vulnerability Analysis and Assistance Program. DARPA was
requested to identify whether DMSS had a vulnerability analysis and assistance
program assessment. According to a dictionary and reference guide used by the
GISR Act Integrated Process Team, a vulnerability analysis and assistance
program was a survey of the Non-Secure Internet Protocol Router Network, the


                                    10
    SECRET Internet Protocol Router Network, and Joint Worldwide Intelligence
    Communications System networks for common computer security vulnerabilities.
    DARPA provided an “NA” response in the matrix. We confirmed that the
    DARPA response was appropriate as of August 1, 2001, and no vulnerability
    analysis and assistance program assessment had been performed.

              Assessments. DARPA was requested to identify the dates for the most
    recent:
                 •   Joint Staff integrated vulnerability assessment,
                 •   system requirements reviews,
                 •   balance survivability assessment, and
                 •   integrated vulnerability assessment.

           DARPA responded in the matrix that none of these assessments had been
    performed. We confirmed that the DARPA responses were correct as of
    August 1, 2001, because the reporting elements in the section were specific
    assessments and technical controls that not all systems were required to perform.

Site Operational Review
    We performed a site operational review at DARPA headquarters, Arlington,
    Virginia, to verify that information security operational controls were in place for
    DMSS. As of June 2002, DARPA had access and physical security controls in
    place. Access controls included password protection, intrusion detection software,
    and information assurance vulnerability alerts. Physical security controls included
    electronic card access to office suites, color-coded identification badges, and
    24-hour security the Arlington County Police Department provided. However, the
    key DARPA information assurance staff positions were not aligned in a way that
    ensures segregation of duties and the required checks and balances in the DITSCAP
    for DMSS. Furthermore, DARPA did not formally appoint three of the four key
    information assurance staff positions required to ensure checks and balances during
    the certification process. Also, the DAA was not within the operational chain of
    command, as the DITSCAP requires. Further, DARPA did not provide support that
    they had verified that the contractors working on the system had proper security
    clearances. As a result, DMSS may not have adequate information security
    operational controls that ensure sensitive information is safeguarded.

DITSCAP Guidance
    DITSCAP states that the key roles in the certification and accreditation process
    are those functions that the systems program manager, the DAA, the certification
    authority, and the user representative perform. The DITSCAP also states that
    those four roles--program manager, DAA, certification authority, and user
    representative--each represent different views and as such provide the checks and
    balances that ensure the minimum security requirements are met. Further,
    DITSCAP requires that the four key information assurance staff positions be
    appointed during the first phase of the certification and accreditation process.


                                          11
     DITSCAP also discusses the roles and responsibilities of each of the four key
     information assurance positions during all phases of the certification and
     accreditation process. The program manager represents the interests of the
     system acquisition or maintenance organization with engineering, schedule, and
     funding responsibility. The DAA represents the interest of the organization
     mission needs, controls the operating environment, and defines the system level
     security requirements. In addition, the DAA should be a senior member of the
     operational chain of command where the system is operating. The certification
     authority provides the technical expertise to conduct the certification by testing
     the security controls. The interests of the users are vested in the user
     representative. The user representative is concerned with systems availability,
     access, integrity, functionality, and performance.

Results of Review
     The key DARPA information assurance staff positions were not aligned in a way
     that would ensure segregation of duties necessary for the checks and balances to
     ensure minimum security requirements for DMSS. A description of the duties for
     each of the key information assurance staff positions was included in “DARPA
     Management Support System (DMSS) Information System Security Plan,”
     November 15, 2001 (System Security Plan). According to the list in the System
     Security Plan, both the DAA and certification authority positions were listed as
     duties the Director of the Security and Intelligence Directorate performed.
     Assigning both of those key positions to the same management official does not
     provide adequate checks and balances of key management oversight functions.
     The DAA oversight management function is to define the system level security
     requirement and the certifying authority is to test the security controls for
     compliance with security requirements. The program manager was listed as the
     DARPA hardware and software support contractor. The user representative was
     listed as the Director of the Information Resources Directorate.

     Additionally, DARPA did not formally appoint three of the four key information
     assurance staff positions. Of the four key information assurance positions--program
     manager, DAA, certification authority, and user representative--the DAA was the
     only official formally appointed as of June 2002. The one formally appointed key
     information assurance position, the DAA for DARPA automated information
     systems, was the Director of the Security and Intelligence Directorate rather than an
     official from the operational chain of command such as an official from the
     DARPA Information Resources Directorate. DARPA officials stated that the
     certification authority, user representative, and program manager would not be
     formally appointed until DMSS was accredited. DARPA planned to have DMSS
     accredited by September 30, 2002. DARPA reported in the management comments
     to the draft report that DMSS was accredited on September 6, 2002 which included
     documentation of the certification authority, project manager, and user
     representative positions.

     On-site contractor personnel provided DMSS information security functions as
     well as software and hardware support. The System Security Plan requires that all
     personnel having access to DMSS have a SECRET security clearance or higher.



                                          12
    DARPA did not provide us with any supporting documentation that they had
    verified contractor personnel security clearances prior to granting access to DMSS.


Management Comments on the Finding and Audit Response
    DARPA Comments on Physical Security Controls. DARPA stated the report
    implied the only physical security control in place as of August 1, 2001, was the
    electronic card access system.

    Audit Response. We revised the discussion to reflect that additional physical
    security controls were in place.

    DARPA Comments on Red and Blue Team Assessment. DARPA stated that
    the draft report was incorrect in stating that DARPA had a blue team assessment
    in February 2000; the blue team assessment was documented in 2002. The
    document cited in the draft report was not a blue team assessment but an
    independent vulnerability assessment.

    Audit Response. We revised the discussion to state that the positive matrix
    response (February 2000 date) submitted by DARPA for blue team assessment
    was incorrect.

    DARPA Comments on Connection Approval. DARPA stated that the
    discussion section on Connections was incorrect. DARPA stated that DMSS is
    connected to a larger backbone network (the Internet). That connection is based
    on a waiver granted by ASD(C3I).

    Audit Response. We revised the discussion to state that the DARPA matrix
    answer was correct.

    A summary of DARPA comments on the finding and our audit response is in
    Appendix C. The complete text of DARPA comments is in the Management
    Comments section of this report.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Director, Defense Advanced Research Projects
    Agency formally appoint a program manager, certification authority, and
    user representative for the Defense Advanced Research Projects Agency
    Management Support System and require appointments that are
    organizationally aligned in a way that will provide checks and balances the
    DoD Information Technology Security Certification and Accreditation
    Process requires.

    DARPA Comments. DARPA nonconcurred, stating that alignment of
    information assurance staff positions is correct and appropriate for DARPA. Also,


                                        13
DARPA stated that it follows DITSCAP requirements to achieve the checks and
balances appropriate for DARPA. DITSCAP places the decisions involved in
those assignments at the Component level. Further, DARPA stated that the three
key positions were documented at the formal accreditation signing in September
2002.

Audit Response. DARPA comments were nonresponsive. DITSCAP requires
that the key roles (DAA, program manager, certification authority, and user
representative) must be appointed during the first phase of the certification and
accreditation process. Additionally, DITSCAP states that “the DAA, the CA
[certification authority], the program manager, and the user representative each
represent different views and as such provide the checks and balances to ensure the
minimum-security requirements are met.” As of the end of the audit period,
August 2002, DARPA had not formally appointed three of the four key
information assurance staff positions. Only the DAA had been appointed and
DARPA officials stated that the certification authority, user representative, and
program manager would not be formally appointed until DMSS was certified.
DARPA comments indicate that the appointments were documented at the formal
accreditation. We request the supporting documentation. Further, according to the
list in the DARPA System Security Plan (an operational document dated
November 15, 2001, 3 months after DARPA submitted the GISR Act matrix data)
both the DAA and certification authority positions were listed as duties the
Director of the Security and Intelligence Directorate performed. Assigning both of
those key positions to the same management official does not provide adequate
checks and balances of key management oversight functions. We request that
DARPA reconsider its position on the recommendation and provide additional
comments and documents in response to the final report.

2. We recommend that the Director, Defense Advanced Research Projects
Agency verify that the certification authority and designated approving
authority are separate and independent from each other.

DARPA Comments. DARPA nonconcurred, stating that those positions are and
have been separate and independent since the initiation of the DITSCAP work.
Further, DARPA stated that the Chief Information Officer “supervises both
positions to ensure independent work, advice, and visibility and resolution of any
conflict.”

Audit Response. DARPA comments were nonresponsive. DARPA did not
provide supporting documentation that verified the independence of the
certification authority and the DAA given that both the DAA and certification
authority positions were listed as duties the Director of the Security and
Intelligence Directorate performed. We request that DARPA provide
documentation that demonstrates that the certification authority and DAA are
separate and independent from each other in its response to the final report.

3. We recommend that the Director, Defense Advanced Research Projects
Agency properly document the security clearance levels for all of the
information systems contract support personnel that have access to the
Defense Advanced Research Projects Agency Management Support System.



                                    14
DARPA Comments. DARPA nonconcurred, stating that the documentation has
always existed, but was not requested.

Audit Response. DARPA comments were nonresponsive. We requested but
DARPA did not provide documentation that it verified the security clearances of
contractor support personnel before granting access to DMSS because security
clearances were not specifically addressed on the GISR Act matrix. We request
that DARPA provide the supporting documentation to demonstrate that contractor
personnel security clearances are verified before they gain access to DMSS in
response to the final report.




                                  15
Appendix A. Scope and Methodology
    We verified and validated the DMSS data supporting the DoD GISR Act Report.
    We also performed a DMSS site operational review at DARPA to validate
    operational controls. To accomplish the audit objective, we:

        •   reviewed Public Law 106-398, Office of Management and Budget
            guidance, and the DoD regulations and guidance related to the GISR Act;

        •   interviewed DMSS personnel in DARPA responsible for the GISR Act
            matrix submission;

        •   verified the information reported on the GISR Act data collection matrix.
            Our verification consisted of reviewing the documentation that supported
            the answers DARPA provided on the GISR Act collection matrix as of
            August 1, 2001; and

        •   reviewed site operations that documented the presence of operational
            controls at DARPA.

    We performed this audit from April through August 2002 in accordance with
    generally accepted government auditing standards. We did not review the
    management control program because DoD recognized information assurance
    programs as a material weakness in its FY 2000 Statement of Assurance, which
    was the most recent, signed Statement of Assurance.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Information Security high-risk area.

Prior Coverage
    No prior coverage has been conducted on DMSS during the last 5 years.




                                       16
Appendix B. Government Information Security
            Reform Act Collection Matrix Submission
     We evaluated the DMSS GISR Act collection matrix that DARPA submitted as of
     August 1, 2001, to ASD(C3I). The following is a summary on the data ASD(C3I)
     requested, the response from DARPA, and our audit analysis of the response for 27 of 321
     fields on the data collection matrix. A list of acronyms is at the end of this appendix.

                                       Accreditation Information

                                  DARPA
   Data Requested                Response2                                 Audit Results

 Accredited? (Date)            Pending             DMSS was not accredited.

                                                   DARPA stated in comments to the draft report that
                                                   DMSS was accredited on September 6, 2002.

 Interim authority to          July 15, 2001       The matrix response should have been July 17, 2001,
 operate? (Date)                                   the date of the interim authority to operate. The
                                                   DAA, Director of Security and Intelligence
                                                   Directorate, granted interim authority to operate the
                                                   DMSS for 3 months.

                                                   The interim authority was renewed three times since
                                                   July 17, 2001. The most recent interim authority to
                                                   operate the DMSS was granted February 22, 2002,
                                                   and valid until September 30, 2002. However,
                                                   DARPA reported in the management comments to
                                                   the draft report that DMSS was accredited on
                                                   September 6, 2002.

 Accreditation under           Yes                 The DARPA response was incorrect. DARPA
 DITSCAP?                                          should have responded “no” because DMSS was not
                                                   accredited as of August 1, 2001.

                                                   DARPA was following DITSCAP to certify and
                                                   accredit DMSS and stated in comments to the draft
                                                   report that DMSS was accredited on
                                                   September 6, 2002.

     1
         We did not include in the matrix five administrative information data fields that identified the system. One
         administrative information data field was answered incorrectly by DARPA. (DMSS was not a
         mission-critical system but a mission-essential system as stated in the DoD Information Technology
         Registry.) Of the 27 DARPA responses in this matrix, 4 were incorrect and 8 could not be verified
         because DARPA did not provide sufficient documentation.
     2
         Some questions requested a date only. If a date was provided, the implied answer was yes.



                                                        17
                               Accreditation Information (cont’d)

                                DARPA
  Data Requested               Response2                                Audit Results

Not DITSCAP,                 Blank               DMSS was not accredited prior to the current effort
describe other.                                  to accredit under DITSCAP.

Formal                       No                  No formal SSAA had been developed for DMSS.
documentation in
effect? (SSAA or                                 Since August 2001, DARPA developed an in-process
other certification                              SSAA.
and accreditation
documentation)




    2
        Some questions requested a date only. If a date was provided, the implied answer was yes.




                                                      18
                                  Assessment Criteria Information

                                DARPA
  Data Requested               Response2                                Audit Results
Access controls in           Yes                DARPA did not provide documentation that
place?                                          supported the “yes” response for having access
                                                controls in place as of August 1, 2001. As a result,
                                                we could not verify the response.

                                                However, DARPA had developed in-process
                                                documents since August 2001 that confirmed the
                                                DMSS used passwords and user accounts.
                                                   − User accounts were user’s first name initial and
                                                     last name.
                                                   − Valid passwords were at least nine
                                                     alphanumeric characters, with both upper and
                                                     lower case, and had at least one special
                                                     character.
                                                   − After five unsuccessful login attempts, the
                                                     DMSS user account was locked out and
                                                     service was denied for 60 minutes. If access
                                                     was needed sooner, the DARPA Help Desk
                                                     unlocked the account.
                                                   − Passwords expired every 90 days.

Risk Assessment              Yes                 DARPA had a risk assessment and management plan
and Management                                   completed as of August 1, 2001.
Plan completed?
                                                 The plan listed procedures for determining minimum
                                                 information system security requirements.

System Life-Cycle            No                  DARPA did not have a DMSS System Life-Cycle
Plan exists?                                     Plan as of August 1, 2001.

                                                 However, DARPA has a system life-cycle
                                                 requirement that called for hardware and software to
                                                 be replaced when or before either reaches a
                                                 predetermined age.




    2
        Some questions requested a date only. If a date was provided, the implied answer was yes.




                                                      19
                           Assessment Criteria Information (cont’d)

                                DARPA
  Data Requested               Response2                                Audit Results

System Security              No                  DARPA did not have a DMSS System Security Plan
Plan in place?                                   as of August 1, 2001.

                                                 However, since that time, DARPA developed a
                                                 DMSS System Security Plan. The plan serves as a
                                                 security policy document and provides security
                                                 services for protection of information systems.
                                                 Further, the plan identifies security mechanisms in
                                                 place on the DMSS and was expanded to include
                                                 security policies and procedures necessary to support
                                                 the changing environment.

Proper personnel             Yes                DARPA did not provide documentation that
security measures in                            supported the “yes” response for having personnel
place? (includes                                security controls in place as of August 1, 2001. As a
assignment of duties                            result, we could not verify the response. However,
and segregation of                              DARPA developed in-process documents since
duties)                                         August 2001 that confirmed the DMSS had personnel
                                                security controls in place. DMSS had segregation of
                                                duties, with varying levels of access and control.

                                                    − The individual must have at least a SECRET
                                                      clearance and been granted access based on a
                                                      “need to know.”
                                                    − The individual had received appropriate
                                                      training in system capabilities and security
                                                      procedures.
                                                    − Foreign nationals who possessed a SECRET
                                                      clearance may be granted access to the DMSS
                                                      only after written approval of the DAA and
                                                      only to the unclassified network.

                                                Passwords were changed every 90 days. Accounts
                                                were terminated when the user was no longer actively
                                                employed or for misuse.




    2
        Some questions requested a date only. If a date was provided, the implied answer was yes.




                                                      20
                           Assessment Criteria Information (cont’d)

                                DARPA
  Data Requested               Response2                                Audit Results

Physical security            Yes                 As of August 1, 2001, we verified that a 24-hour
controls in place?                               electronic card access system and other after-
                                                 business-hours controls, such as closed-circuit
                                                 television and unarmed guards, were providing the
                                                 primary access controls for the DARPA office suites.

                                                 Since August 2001, DARPA implemented additional
                                                 physical security controls, to include armed guards,
                                                 and an Arlington County police officer was stationed
                                                 outside of the DARPA main building 24 hours a day.




    2
        Some questions requested a date only. If a date was provided, the implied answer was yes.




                                                      21
                           Assessment Criteria Information (cont’d)

                                DARPA
  Data Requested               Response2                                Audit Results

Administrative               Yes                 DARPA did not provide documentation that
controls in place?                               supported the “yes” answer as of August 1, 2001. As
(includes help desk                              of August 1, 2001, we verified that DARPA had a
and audit trail)                                 help desk, but we could not verify that DARPA had
                                                 established audit trails. However, DARPA provided
                                                 documentation indicating that audit trails have been
                                                 established subsequent to August 1, 2001.

Contingency Plans            Yes                 The DARPA response was incorrect. DARPA
in place?                                        should have responded “no” because the “yes”
                                                 response was based on a contingency plan for 2000.
                                                 That plan addressed only 2000 activities and did not
                                                 address contingency operations in a broader context.

                                                 Since August 2001, DARPA developed an in-process
                                                 Business Resumption Plan that provided the
                                                 procedures necessary to recover critical DARPA
                                                 business functions in the event of a disaster.

Date contingency             December 30,        The DARPA response was incorrect. The DARPA
plans last exercised?        1999                2000 Contingency Plan was exercised in the
                                                 December 1999 time frame but was performed for
                                                 2000 concerns and not applicable to current
                                                 conditions.

Hardware and         Yes                         DARPA did not provide documentation that
system software                                  supported the “yes” response as of August 1, 2001.
maintenance plans in                             As a result, we could not verify the response.
place? (includes
version control                                  Since August 2001, DARPA developed a
testing)                                         configuration management plan, used to manage
                                                 configuration of DMSS hardware and software. In
                                                 addition, DARPA chartered the DARPA
                                                 Configuration Control Board to control the DMSS
                                                 configuration. The board was to establish procedures
                                                 for controlling changes in configuration items.




    2
        Some questions requested a date only. If a date was provided, the implied answer was yes.




                                                      22
                           Assessment Criteria Information (cont’d)

                                DARPA
  Data Requested               Response2                                Audit Results

Data integrity               Yes                 DARPA did not provide documentation that
process in place?                                supported the “yes” response as of August 1, 2001.
(includes virus                                  As a result, we could not verify the response.
scans, system
performance                                      DARPA subsequently developed in-process
monitoring)                                      documents that confirmed the DMSS has a data
                                                 integrity process in place.

                                                 Virus scans and communication encryption software
                                                 protected DMSS.

Security incident            Yes                 DARPA did not provide documentation that
response plan in                                 supported the “yes” response as of August 1, 2001.
place?                                           As a result, we could not verify the response.

                                                 DARPA did not provide documentation that
                                                 indicated
                                                 the current status.




    2
        Some questions requested a date only. If a date was provided, the implied answer was yes.



                                                      23
                        Operations and Assessments Interest Items

                                DARPA
  Data Requested               Response2                               Audit Results

Protected by IDS             Yes                 DARPA did not provide documentation that
[Intrusion Detection                             supported the “yes” response as of August 1, 2001.
Software]?                                       As a result, we could not verify the response.

                                                 However, DARPA developed in-process
                                                 documents since August 2001 that confirmed IDS
                                                 protected DMSS.

Boundary protection          Yes                 DARPA did not provide documentation that
in place? (For                                   supported the “yes” response as of August 1, 2001.
example, firewall)                               As a result, we could not verify the response.

                                                 DARPA developed in-process documents since
                                                 August 2001 that confirmed boundary protection
                                                 (firewalls) protect DMSS.

                                                 Unsuccessful login attempts were tracked.

Red and blue team            February 8,         The DARPA response was incorrect. DARPA
assessment? (Date)           2000                should not have answered with a date because,
                                                 according to the DARPA comments on the draft
                                                 report, an independent vulnerability assessment
                                                 was performed on February 8, 2000, not a blue
                                                 team assessment. The blue team assessment was
                                                 performed in 2002.

Connection                   Yes                 The DARPA response was correct. DARPA stated
approved?                                        that they had a waiver from ASD(C3I) to connect to
                                                 the Internet.


IAVA [Information            Yes                 We confirmed that the DARPA response was
Assurance                                        appropriate as of August 1, 2001, because DMSS
Vulnerability Alert]                             was information assurance vulnerability alert
compliant?                                       compliant.




    2
        Some questions requested a date only. If a date was provided, the implied answer was yes.



                                                      24
                  Operations and Assessments Interest Items (cont’d)

                                DARPA
  Data Requested               Response2                               Audit Results

VAAP                         NA                  VAAP was not required and not applicable to
[Vulnerability                                   DMSS.
Analysis and
Assistance Program]
assessment
complete? (Date)

Joint Staff integrated No                        No Joint Staff integrated vulnerability assessments
vulnerability                                    were completed for DMSS.
assessments
complete? (Date)

System requirements No                           No system requirements reviews were completed
reviews complete?                                for DMSS.
(Date)

Balance                      No                  No balance survivability assessment was completed
survivability                                    for DMSS.
assessment
complete? (Date)

Integrated                   No                  No integrated vulnerability assessment was
vulnerability                                    completed for DMSS.
assessment
complete? (Date)




    2
        Some questions requested a date only. If a date was provided, the implied answer was yes.




                                                      25
Applicable Acronyms

ASD(C3I)          Assistant Secretary of Defense (Command, Control,
                     Communications, and Intelligence)
DAA               Designated Approving Authority
DARPA             Defense Advanced Research Projects Agency
DITSCAP           Defense Information Technology Security Certification and
                     Accreditation Process
DMSS              Defense Advanced Research Projects Agency Management
                     Support System
GISR              Government Information Security Reform
IAVA              Information Assurance Vulnerability Alert
IDS               Intrusion Detection Software
SSAA              System Security Authorization Agreement
VAAP              Vulnerability Analysis and Assistance Program




                              26
Appendix C. Summary of DARPA Comments on
            the Finding and Audit Response
    The following is a summary of DARPA comments on the finding and our audit
    response to those comments.


Mission and System Information
    DARPA Comments on Contract Support. DARPA nonconcurred with the report
    statement, “In September 2001, DARPA contracted for DMSS hardware, software,
    and systems support.” DARPA stated, “The DMSS is a legacy system and has
    existed since the early 1980s. It and other Information Technology (IT) assets were
    transferred to the extant contractor under a modified managed services contract
    awarded in April 2001.”

    Audit Response. The modified managed services contract was awarded in
    April 2001 by the Department of Transportation. However, the delivery order on
    the Department of Transportation contract for DARPA managed services
    requirements was not issued until September 2001.


Data Collection Matrix
    DARPA Comments on Accreditation Method. DARPA nonconcurred with our
    conclusion that its matrix response on DMSS accreditation under DITSCAP was
    incorrect. DARPA stated:
               The matrix question is “Accreditation under DITSCAP?” This question
               asks if DITSCAP is the framework under which accreditation is
               developed, not whether accreditation has been completed (which is
               asked separately above it). DARPA is correct to respond “Yes” in that
               DARPA was using DITSCAP as the basis for all accreditation and
               certification work.

    Audit Response. The co-chairman of the GISR Act Integrated Process Team
    stated that it was the direction and intent of the Office of the Secretary of Defense
    that activities should respond “no” to items where there was no formal/approved
    documentation. DARPA did not have formal/approved documentation on
    DITSCAP accreditation for DMSS as of August 1, 2001, the matrix submission
    date. Therefore, its matrix response should have been “no” because DMSS was
    not accredited under DITSCAP as of August 1, 2001.

    DARPA Comments on Certification and Accreditation Documentation.
    DARPA nonconcurred with the term “in-process,” which was used throughout the
    report. DARPA stated:



                                           27
           The DoDIG term “in-process” is misleading and does not convey the
           true state of the accreditation documents given to the DoDIG. Those
           documents were complete and reviewed by senior management at the
           time they were written. Because the DMSS is a dynamic system, with
           frequent (often weekly) changes, the supporting documents are under
           constant revision. They could not, by definition, be “approved” until
           formal accreditation.

Audit Response. We believe “in-process” is an appropriate term to describe
documents “under constant revision,” as stated by DARPA.

DARPA Comments on Access Controls. DARPA nonconcurred with our report
statement, “DARPA did not provide documentation that supported the ‘yes’
response for having access controls in place as of August 1, 2001.” DARPA
stated:
           The DoDIG requested specific documentation in writing. DARPA
           provided that documentation and did not receive any response stating
           such documentation was insufficient for their needs.               The
           documentation provided to the DoDIG was DITSCAP documentation
           dated after August 1, 2001, which details the physical, technical, and
           administrative controls in place to protect the DMSS.

Audit Response. We requested access control documentation as of
August 1, 2001, in order to verify the DMSS data provided in the matrix. The
access control document DARPA provided us was dated December 10, 2001,
which is after the cut-off date.

DARPA Comments on System Life-Cycle Plan. DARPA nonconcurred with
the draft report statement, “We confirmed that when DARPA submitted the
matrix data as of August 1, 2001, they had not developed a DMSS System Life-
Cycle Plan. However, since that time, DARPA has a system life-cycle
requirement that called for hardware and software to be replaced when or before
either reaches 24 months of age.” DARPA stated:
           DAPRA has always had a life-cycle requirement for refreshment of
           DMSS components. As of April 2001, the effective date of the latest
           contract for DMSS support, this requirement was 24 months. Prior to
           that, it was 36 months.

Audit Response. We modified the report, which now reads: “However, DARPA
has a system life-cycle requirement that called for hardware and software to be
replaced when or before either reaches a predetermined age. ”

DARPA Comments on Personnel Security Measures. DARPA nonconcurred
with the report statement that it did not provide documentation that supported the
“yes” response for having personnel security measures in place as of
August 1, 2001. DARPA stated:
           This is an incorrect statement. The DoDIG requested specific
           documentation in writing. . . . The documentation provided to the




                                        28
          DoDIG was DITSCAP documentation dated after August 1, 2001,
          which details the controls related to personnel security that were in
          place to protect the DMSS.

Audit Response. We requested documentation that supported the “yes” response
regarding the presence of personnel security measures as of the date that DARPA
submitted the DMSS matrix data, August 1, 2001. The personnel security
documents DARPA provided were dated November 2001.

DARPA Comments on Physical Security Controls. DARPA stated that the
section on Physical Security Controls was misleading, adding:
          The wording implies that on August 1, 2001, DARPA had only its
          electronic card access system in place as a physical security control. It
          implies that the other controls were added after August 1, 2001. All
          security measures mentioned here, with the exceptions of armed (vs.
          unarmed) guards and an on-station Arlington County police officer,
          have been in place at DARPA for many years.

Audit Response. We revised the Physical Security Controls section to reflect
DARPA concerns.

DARPA Comments on Administrative Controls. DARPA stated that the report
section on Administrative Controls contained incorrect statements, specifically
noting:
          The DoDIG requested specific documentation in writing. . . . The
          documentation provided to the DoDIG was DITSCAP documentation
          dated after August 1, 2001, which indicates that administrative controls
          were in place. Similar controls have been in place since the initial
          implementation of the DMSS in the early 1980s.

Audit Response. We requested administrative control documentation as of
August 2001 to verify the DMSS data provided in the matrix. As stated in the
DARPA response, the administrative control documentation DARPA provided us
was dated after August 1, 2001.

DARPA Comments on Contingency Plans. DARPA provided four separate
comments on the contingency plan portion of the report.

   •   DARPA stated that the report statement indicating that DARPA should
       have responded “no” because the “yes” response was based on the 2000
       Contingency Plan was incorrect. DARPA stated:
          There is no basis in fact for saying that a Y2K [year 2000] contingency
          plan is not appropriate for future use. . . . That documentation, with its
          detailed procedures for responding to a wide range of disruptions,
          including total system replacement, was a highly useful contingency
          plan on August 1, 2001.




                                        29
   •   DARPA stated that the report was incorrect in stating that the contingency
       plan discussed two DARPA mission-essential systems: the main DARPA
       building and the financial information system. DARPA stated:
          There is only one DARPA system, which is the mission-essential
          DMSS, so named in the DoD Y2K Data Base, which preceded the
          DoD IT Registry. The voluminous plan discusses nothing but the
          DMSS, DARPA’s single local area network, including all attachments
          and peripherals.

   •   DARPA stated that the report was incorrect with respect to the statement
       that DARPA should not have provided a date because the exercise was
       based on a year 2000 contingency plan. DARPA stated:
          [T]here is no basis for categorically stating the plan should not have
          been used for an exercise just because it was developed for Y2K
          concerns. In fact, it is as good and appropriate a plan as could have
          been used at the time, with no additional costs incurred.

   •   DARPA also nonconcurred with the statement in the report, “Furthermore,
       the 2000 Contingency Plan exercise focused only on interruptions
       for 2000.”
          This is an incorrect statement. . . . [T]he 2000 Contingency Plan
          provides detailed procedures covering the widest possible range and
          degree of disruptions, whether those disruptions might be caused by
          utility failures, fire, flood, malicious intent, or other problems. The
          DoDIG based its report on less than 1 percent of the Y2K
          documentation.

Audit Response. DARPA provided a document titled “DARPA Y2K
Contingency Planning” to the audit team in response to our request for a
contingency plan as of August 1, 2001. The document stated that “DARPA has
two ‘mission-essential’ systems, the main DARPA building and the financial
information system.” The document did not mention DMSS or a similar legacy
system that predated DMSS. DARPA did not indicate that this was a partial or
incomplete document. If documents existed, they were not provided. DARPA
responded in the matrix that DMSS was last exercised December 30, 1999. We
verified that the contingency plan was exercised in the December 1999 time frame.
However, DARPA should not have answered with a date because the exercise was
based on a year 2000 contingency plan. Furthermore, the 2000 Contingency Plan
exercise focused only on interruptions for 2000.

DARPA Comments on Hardware and Software Maintenance Plans. DARPA
stated that the report section on Hardware and System Software Maintenance
Plans was incorrect in stating that the “yes” answer was incorrect. DARPA stated
it had hardware and software maintenance plans in place prior to August 1, 2001.

Audit Response. We requested hardware and software maintenance plan
documentation as of August 2001, to verify the DMSS data provided in the
matrix. The hardware and software maintenance plan documentation DARPA
provided was dated after August 1, 2001.


                                       30
DARPA Comments on Data Integrity Process. DARPA stated that the report
section on Data Integrity Process was incorrect, adding:
          The documentation provided to the DoDIG was DITSCAP
          documentation dated after August 1, 2001, which details an in-place
          data integrity process that protects DMSS data . . . . Similar procedures
          have been in place since the initial implementation of the DMSS in the
          early 1980s.

Audit Response. We requested data integrity process documentation as of
August 2001 to verify the DMSS data provided in the matrix. The data integrity
process documentation DARPA provided was dated after August 1, 2001.

DARPA Comments on Security Incident Response Plan. DARPA stated that
the statement about documentation in the Security Incident Response Plan section
was incorrect, adding:
          The DoDIG requested specific documentation in writing. . . . The
          documentation provided to the DoDIG details our security incident
          response plan that is in place to protect the DMSS from adverse events
          that could cause a failure of security mechanisms or when an attempted
          breach of these mechanisms occurs.

Audit Response. We requested security incident response plan documentation as
of August 2001 to verify the DMSS data provided in the matrix. We did not
receive any Security Incident Response Plan documentation. Therefore, we could
not verify the matrix response.

DARPA Comments on Intrusion Detection Software and Firewalls. DARPA
stated that the report sections on Intrusion Detection Software and Firewalls
contained incorrect statements, adding:
          The DoDIG requested specific documentation in writing.
          Documentation was provided to the DoDIG that details boundary
          protections, specifically in the form of firewalls, intrusion detection
          systems, and network topology in place to support protection of the
          DMSS from external threats. These systems have been in place since
          DARPA funded research and development of these technologies in the
          early 1990s.

Audit Response. We requested intrusion detection software and firewall
documentation as of August 2001 to verify the DMSS data provided in the matrix.
The intrusion detection software and firewall documentation DARPA provided us
was dated after August 1, 2001.

DARPA Comments on Red and Blue Team Assessment. DARPA stated that
the report section on Red and Blue Team Assessment was incorrect. DARPA
stated, “The blue team assessment was performed and documented in 2002. The
independent vulnerability assessment was performed February 8, 2000, as stated
in the report.”




                                        31
    Audit Response. DARPA responded in the matrix that DMSS had a blue team
    assessment performed on February 8, 2000. DARPA provided a document
    described as documentation of the February 8, 2000, blue team assessment. In
    its comments, DARPA states that an independent vulnerability assessment, not
    a blue team assessment, was performed on that date. In keeping with the
    clarification, we have revised the report to state that the DARPA matrix answer
    showing that a blue team assessment was done in February 2000 was incorrect.

    DARPA Comments on Connections. DARPA stated the report section on
    Connections was incorrect. DARPA stated that DMSS is connected to a larger
    backbone network (the Internet), for which ASD(C3I) granted a waiver.

    Audit Response. We have revised the report to state that the DARPA matrix
    answer was correct. We request that DARPA provide documentation of the
    ASD(C3I) waiver in response to the final report.


Site Operational Review
    DARPA Comments on Segregation of Duties. DARPA disagreed with the
    report’s statement that key information assurance staff positions were not aligned
    in a way that ensures segregation of duties and the required checks and balances.
    DARPA stated:
               DITSCAP leaves the determination of proper checks and balances to
               the discretion of the Component. Further, DARPA has ensured
               segregation of duties with checks and balances through a CIO [Chief
               Information Officer] policy memorandum and separation of
               responsibilities guidance provided to the DoDIG.

    Audit Response. Section E3.3.3.6. of the DITSCAP states, “The DAA, the CA
    [certification authority], the program manager, and the user representative each
    represent different views and as such provide the checks and balances to ensure
    the minimum-security requirements are met.” The documentation provided by
    DARPA indicated that the DAA and the certification authority were the same
    person.

    DARPA Comments on Key Information Assurance Staff Positions. DARPA
    stated that the report is incorrect in stating that DARPA did not formally appoint
    three of the four key information assurance staff positions required to ensure
    checks and balances during the certification process. DARPA stated:
               The DoDIG is incorrect in stating that these positions are required
               during the certification process.       DITSCAP requires only that
               individuals be identified, which DARPA did early in the process.
               Further, while checks and balances are required, they are not
               necessarily embodied in these positions, as the choice and
               implementation of checks and balances is under Component discretion.
               DITSCAP “allows these four managers to tailor . . . efforts to the
               particular mission . . . of the system.” The three key positions were
               also


                                           32
           documented at the time of the formal accreditation signing (which for
           DARPA was September 6, 2002); formal appointment is not required
           by DITSCAP.

Audit Response. Sections E3.3.3.4. and E4.1.1.1. of the DITSCAP states that the
key roles in the DITSCAP certification and accreditation process are the system
program manager, the DAA, certification authority, and user representative.
Further, the DITSCAP requires that appointments to those key roles be made
during the first phase of the certification and accreditation process. The
DITSCAP allows tailoring of the certification and accreditation process to suit
system requirements. For example, combining phases of the certification and
accreditation process may be appropriate for modifying an existing information
system. However, all phases of certification and accreditation, as shown in
Table E4-1 of the DITSCAP, clearly define roles and responsibilities throughout
the process for each of the four key roles.

DARPA Comments on Operational Chain of Command. DARPA stated that
the report was incorrect in stating that the DAA was not within the operational
chain of command as required by the DITSCAP.

Audit Response. Section E4.2.1. of the DITSCAP states, “The DAA should be a
senior member of the operational chain-of-command where the system is
operating.” According to the DARPA Office of Management Operations
Information Assurance Policy, “The IRD [Information Resources Directorate]
provides general computing resources for the DARPA enterprise networks,
including its IA [Information Assurance] functions, consisting of the physical
infrastructure (equipment, cabling and software) and support services needed for
acquisition, development, operations, maintenance and security.” The policy also
states, “The Information Assurance office, under S&ID [Security and Intelligence
Directorate], provides IA policy, IA technical assistance, IA independent
verification and validation, and oversight of DARPA IS [information system]
resources.” The DARPA DAA was the Director of the Security and Intelligence
Directorate rather than an official from the DARPA Information Resources
Directorate, which handles operations.

DARPA Comments on Contractor Clearances. DARPA stated that the report
was incorrect in stating that DARPA did not provide support that it had verified
that contractors working on the system had proper security clearances. DARPA
stated:
           The DARPA security control system contains all clearance data for all
           users of the DMSS. Reports of these data can be generated at any time
           and could have easily been made available by DARPA.

Audit Response. Security clearance levels are not specifically addressed in the
matrix. As a result, DARPA did not provide any supporting documentation that it
had verified contractor personnel security clearances prior to gaining access to
DMSS. A DARPA official agreed to obtain documentation on personnel but did
not provide that documentation.




                                       33
    DARPA Comments on Information Security Operational Controls. DARPA
    took strong exception to the report statement that DARPA may not have adequate
    information security operational controls, stating:
               DARPA’s controls go far beyond those required. The proof that those
               controls safeguard DARPA’s information is in independent
               assessments of the strength of our protections, most recently in the
               form of a blue team exercise in which no compromises of our system
               were made.

    Audit Response. We concluded that DARPA may not have adequate information
    security operational controls in place because, as stated in the report:

       •   the key DARPA information assurance staff positions were not aligned in
           a way that ensures segregation of duties and the required checks and
           balances in the DITSCAP for DMSS;

       •   DARPA did not formally appoint three of the four key information
           assurance staff positions required to ensure checks and balances during the
           certification process;

       •   the DAA was not within the operational chain of command, as the
           DITSCAP requires; and

       •   DARPA did not provide support that it had verified that the contractors
           working on the system had proper security clearances.


DITSCAP Guidance
    DARPA Comments on DITSCAP Guidance. DARPA nonconcurred with the
    report statement that the DITSCAP requires the four key information assurance
    staff positions to be appointed during the first phase of the certification process.
    DARPA stated:
               DoD 8510.1-M, DITSCAP Application Manual, in Section C3.4.3.2.1,
               “DITSCAP Phase I Activities,” clearly states “Identify the Agency or
               organization that will serve as the DAA, Certifier, and user
               representative. Identify individuals and their responsibilities in the
               C&A [certification and accreditation] process.”         There is no
               requirement for appointment. DARPA identified individuals for those
               key positions, but did not appoint the program manager or user
               representative until the formal accreditation.

    Audit Response. Section E4.2.1.1. of the DITSCAP states that the key parties
    throughout the DITSCAP are the system program manager, the DAA, the
    certification authority, and the user representative. Further, the DITSCAP
    requires that appointments to those key roles be made during the first phase of the
    certification and accreditation process. All phases of certification and
    accreditation, as shown in Table E.4-1 of the DITSCAP, clearly define roles and
    responsibilities throughout the process for each of the four key roles.


                                            34
Results of Review
     DARPA Comments on Alignment of Staff Positions. In response to the report
     statement that information assurance staff positions were not aligned in a way that
     would ensure segregation of duties necessary for the checks and balances to
     ensure minimum security requirements for DMSS, DARPA stated:
                This statement is incorrect and misleading. The report makes an
                implicit assumption that there is only one correct way for Components
                to ensure segregation of duties with proper checks and balances.
                DITSCAP leaves the determination of proper checks and balances to
                the discretion of the Component.

     Audit Response. Section E3.3.3.6. of the DITSCAP states, “The DAA, the CA
     [certification authority], the program manager, and the user representative each
     represent different views and as such provide the checks and balances to ensure
     the minimum-security requirements are met.” The documentation provided by
     DARPA indicated that the DAA and the certification authority were the same
     person.

     DARPA Comments on Formal Appointments. DARPA nonconcurred with the
     report statement that three of the four key information security staff positions had
     not been formally appointed. DARPA stated:
                This statement is misleading. It implies that these positions are required
                during the certification process. As stated above, DoD 8510.1-M,
                DITSCAP Application Manual, in Section C3.4.3.2.1, “DITSCAP Phase
                I Activities,” clearly states, “Identify the Agency or organization that will
                serve as the DAA, Certifier, and user representative. Identify individuals
                and their responsibilities in the C&A [certification and accreditation]
                process.” There is no requirement for appointment. DARPA identified
                individuals for those key positions, but did not appoint the program
                manager or user representative until the formal accreditation.

     Audit Response. Section E4.1.1.1. of the DITSCAP states that the key roles in
     the DITSCAP certification and accreditation process are the system program
     manager, the DAA, certification authority, and user representative. The
     DITSCAP also requires that appointments to those key roles must be made during
     the first phase of the certification and accreditation process. All phases of
     certification and accreditation, as shown in Table E4-1 of the DITSCAP, clearly
     define roles and responsibilities throughout the process for each of the four key
     roles.

     DARPA Comments on the DAA. DARPA nonconcurred with the report
     statement that the DAA for DARPA automated information systems was the
     Director of the Security and Intelligence Directorate rather than an official from
     the operational chain of command, such as an official from the DARPA
     Information Resources Directorate. DARPA stated:
                This statement is incorrect. The DAA is, in fact, within the operational
                chain of command. DARPA maintains a matrixed command structure



                                               35
           for network operations. The DAA plays a critical function in that
           operation. In fact, the network cannot operate without the expressed
           consent of the DAA. The DAA has the operational power to shut
           down the network at any time.

Audit Response. Section E4.2.1. of the DITSCAP states, “The DAA should be a
senior member of the operational chain-of-command where the system is
operating.” According to the DARPA Office of Management Operations
Information Assurance Policy, “The IRD [Information Resources Directorate]
provides general computing resources for the DARPA enterprise networks,
including its IA [information assurance] functions, consisting of the physical
infrastructure (equipment, cabling and software) and support services needed for
acquisition, development, operations, maintenance and security.” The policy also
states, “The Information Assurance office, under S&ID [Security and Intelligence
Directorate], provides IA [information assurance] policy, IA technical assistance,
IA independent verification and validation, and oversight of DARPA IS
[information systems] resources.” The DARPA DAA was the Director of the
Security and Intelligence Directorate rather than an official from the DARPA
Information Resources Directorate, which handles operations. DARPA did not
provide documentation on the matrixed command structure.

DARPA Comments on Contractor Clearances. DARPA stated that the report
was misleading in making the statement that DARPA did not provide supporting
documentation that it had verified contractor personnel security clearances before
granting contractors access to DMSS. DARPA stated:
           In fact, the DoDIG never asked for such data. The DARPA security
           control system contains all clearance data for all users of the DMSS.
           Reports of these data can be generated at any time and could have
           easily been made available.

Audit Response. Security clearance levels are not specifically addressed in the
matrix. As a result, DARPA did not provide any supporting documentation that it
had verified contractor personnel security clearances before granting contractors
access to DMSS. Although a DARPA official agreed to provide the support on
the clearance levels of contractor personnel, that official did not provide the
documentation.




                                       36
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Director, Defense-Wide Information Assurance Program

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Advanced Research Projects Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
   Inspector General, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          37
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          38
Defense Advanced Research Projects
Agency Comments




                     39
40
41
42
     Final Report
      Reference




     Page 3




     Pages 4-11




43
44
     Final Report
      Reference




     Revised




     Revised




45
46
47
48
     Final Report
      Reference




     Revised




     Revised




49
Final Report
 Reference




Page 11




               50
     Final Report
      Reference




     Page 11




     Page 12




51
Final Report
 Reference




Page 13




               52
53
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Tilghman A. Schraden
Kathryn L. Palmer
Jason T. Steinhart
Susan R. Ryan
Sharon L. Carvalho
Elizabeth L.N. Shifflett
